U.S. Department of the Interior
Office of Inspector General

                             Audit Report

Job Training Partnership Act Programs
                 Department of Labor
      Government of the Virgin Islands




                          Report No. 2002-I-0002
                                 November 2001
                                                                                    V-IN-VIS-003-01-R

                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL

                                          Insular Area Audits
                                       Federal Building, Room 207
                                    St. Thomas, Virgin Islands 00802

                                                                                 November 7, 2001

Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject: Audit Report on the Job Training Partnership Act Programs, Department of Labor,
         Government of the Virgin Islands (No. 2002-I-0002)

Dear Governor Turnbull:

       This report presents the results of our audit of the Job Training Partnership Act (JTPA)
programs administered by the Department of Labor.

       Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

        Please provide a response to this report by November 30, 2001. The response should provide
the information requested in Appendix 4 and should be addressed to our Caribbean Regional Office,
Federal Building - Room 207, Charlotte Amalie, Virgin Islands 00802.

                                              Sincerely,



                                              Arnold E. van Beverhoudt, Jr.
                                              Audit Manager for Insular Areas

cc:   Commissioner of Labor
      Commissioner of Finance
EXECUTIVE SUMMARY
                   The Virgin Islands Department of Labor is responsible for
BACKGROUND         administering programs under the Job Training Partnership
                   Act (JTPA), which was enacted by Congress in 1982 to
                   establish programs to prepare youth and adults facing serious
                   barriers to employment for participation in the labor force.
                   The U.S. Department of Labor awarded grants to the Virgin
                   Islands Department of Labor for JTPA programs through
                   Notices of Obligations. The grants totaled $2.14 million for
                   program year 1998 and $2.17 million for program year 1999.


                   The objective of the audit was to determine whether (1) Labor
OBJECTIVE          complied with JTPA grant terms and applicable laws and
                   regulations; (2) charges made against JTPA grant funds were
                   reasonable, allowable, and allocable pursuant to the grant
                   agreement provisions; (3) drawdowns were appropriately
                   deposited to and accounted for in the Government’s financial
                   management system; (4) JTPA program participants met
                   eligibility requirements; and (5) contracts paid from JTPA
                   funds were awarded and administered in accordance with
                   applicable laws and regulations.


                   Although the Department of Labor had adequate controls over
RESULTS IN BRIEF   JTPA contracts awarded to business entities that provided job
                   training and other services, other controls needed
                   improvement. Specifically, we found that Labor (1) did not
                   maintain adequate financial accountability over JTPA grant
                   expenditures and drawdowns and (2) did not have effective
                   management control over JTPA grant and program
                   operations. Labor employees did not always follow Federal
                   requirements for the administration of grants and the JTPA
                   programs, and Labor management did not provide adequate
                   oversight to ensure that the administrative requirements were
                   being met. As a result, we were unable to verify the accuracy
                   of financial status reports submitted to the U.S. Department
                   of Labor or of drawdowns made against program funds.
                   Therefore, we classified expenditures of $1.91 million as
                   unsupported costs. Additionally, payroll costs of $152,840
                   were charged to the wrong accounts, and additional payroll
                   costs of $16,400 could not be verified. Further, there was no
                   assurance that JTPA program participants were eligible to
                   participate or that they had received the type or level of
                   services intended by the JTPA legislation.
                   We made 12 recommendation to the Governor of the Virgin
RECOMMENDATIONS    Islands to address the management and internal control
                   weaknesses disclosed by the audit.


                   The Governor and the Department of Labor concurred with
AUDITEE COMMENTS   the 12 recommendations, but did not provide sufficient detail
AND OFFICE OF      on proposed corrective actions for some of the
INSPECTOR          recommendations. Therefore, based on the response, we
GENERAL            consider three recommendations resolved and implemented,
EVALUATION         one recommendation resolved but not implemented, and
                   requested additional information for eight recommendations.




                             2
CONTENTS
                   .............................................                                             1
EXECUTIVE
SUMMARY

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            5
INTRODUCTION       Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . .                 6
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . .                7

                   Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
RESULTS OF AUDIT   Financial Accountability . . . . . . . . . . . . . . . . . . . . . . . . 8
                   Grant and Program Administration . . . . . . . . . . . . . . . . 14

                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
RECOMMENDATIONS

                   1.   Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . .            21
APPENDICES         2.   Prior Audit Report . . . . . . . . . . . . . . . . . . . . . . . . . . .           22
                   3.   Responses to Draft Report . . . . . . . . . . . . . . . . . . . .                  23
                   4.   Status of Recommendations . . . . . . . . . . . . . . . . . . .                    27




                                   3
4
INTRODUCTION
                                             The Virgin Islands Department of Labor is responsible for
BACKGROUND                                   administering programs under the Job Training Partnership
                                             Act (JTPA), which was enacted by Congress in 1982. The
                                             purpose of JTPA (20 CFR Part 626) is "to establish programs
                                             to prepare youth and adults facing serious barriers to
                                             employment for participation in the labor force by providing
                                             job training and other services that will result in increased
                                             employment and earnings, increased educational and
                                             occupational skills, and decreased welfare dependency."
                                             JTPA programs include Adult Training (Title II-A), Summer
                                             Youth Employment Training (Title II-B), Youth Training
                                             (Title II-C), and Employment and Training Assistance for
                                             Dislocated Workers (Title III). These programs provide such
                                             services as classroom training; on-the-job training; and
                                             individual referrals for low-income individuals ages 14 and
                                             older, older individuals age 55 and older, and dislocated
                                             workers. On July 1, 2000, the Workforce Investment Act
                                             replaced JTPA, and Titles II-B and II-C were combined into
                                             one program called Youth Training.

                                             The U.S. Department of Labor awarded grants to the Virgin
                                             Islands Department of Labor for JTPA programs through
                                             Notices of Obligations, which totaled $2.14 million for
                                             program year 19981 and $2.17 million for program year 1999.
                                             As of December 18, 2000, we determined that the U.S.
                                             Department of Labor had provided $1.66 million against the
                                             program year 1998 Notices of Obligations and $1.33 million
                                             against the program year 1999 Notices of Obligations, leaving
                                             a combined balance of $1.32 million available for
                                             expenditure.

                                             Although there is no Federal requirement for a local match,
                                             the Government of the Virgin Islands appropriated $509,000
                                             in fiscal year 1999 and $491,000 in fiscal year 2000 for JTPA
                                             programs. We determined that expenditures of local funds
                                             totaled $577,000 in fiscal year 1999 and $484,000 in fiscal
                                             year 2000. Therefore, the JTPA program overspent its local
                                             appropriation for fiscal year 1999 by about $68,000 and
                                             underspent its local appropriation for fiscal year 2000 by
                                             about $7,000.
__________
1
 A "program year" is a 12-month period beginning July 1, but funds awarded through Notices of Obligations are
available for a 3-year period. For example, funds provided through Notices of Obligations for program year 1998 would
be available for use during the period of July 1, 1998 to June 30, 2001.


                                                         5
                Job training and other services provided by business entities
                are procured through contracts awarded by a Human Resource
                Investment Council. For program years 1998 and 1999, the
                Council awarded 19 contracts for job training and other
                services totaling $850,800.


                The objective of the audit was to determine whether (1) Labor
OBJECTIVE AND   complied with JTPA grant terms and applicable laws and
SCOPE           regulations; (2) charges made against JTPA grant funds were
                reasonable, allowable, and allocable pursuant to the grant
                agreement provisions; (3) drawdowns were appropriately
                deposited to and accounted for in the Government’s financial
                management system; (4) JTPA program participants met
                eligibility requirements; and (5) contracts paid from JTPA
                funds were awarded and administered in accordance with
                applicable laws and regulations. The scope of the audit
                included a review of grant transactions that occurred during
                program years 1998 and 1999 (through December 31, 2000)
                and other periods as appropriate.

                To accomplish our audit objective, we interviewed officials
                and reviewed records related to the JTPA programs at offices
                of the Department of Labor on St. Thomas and St. Croix, the
                Department of Finance on St. Thomas, the Human Resource
                Investment Council on St. Croix, and selected JTPA
                contractors on St. Thomas and St. Croix.

                The scope of our review was limited because Labor personnel
                were unable to provide us with lists of specific expenditures
                and the related supporting documents for amounts included in
                financial status reports and grant drawdowns. As a result, we
                were unable to review specific charges made against the
                Notices of Obligations to determine whether the charges were
                reasonable, allowable, and allocable pursuant to the grant
                agreement provisions.

                Our audit was conducted in accordance with the "Government
                Auditing Standards," issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records
                and other auditing procedures that were considered necessary
                under the circumstances. The "Standards" requires that we
                obtain sufficient, competent, and relevant evidence to afford
                a reasonable basis for our findings and conclusions.

                As part of our audit, we evaluated the internal controls at the
                Department of Labor to the extent we considered necessary to


                           6
              accomplish the audit objective. Internal control weaknesses
              were identified in the areas of financial accountability and
              grant and program administration. These weaknesses are
              discussed in the Results of Audit section of this report. The
              recommendations, if implemented, should improve the
              internal controls in these areas.


              The Office of Inspector General has not issued any reports on
PRIOR AUDIT   JTPA programs during the past 5 years. However, in
COVERAGE      December 1996, the Virgin Islands Bureau of Audit and
              Control issued a report on service contracts paid from JTPA
              funds awarded for program years 1990 to 1993 (see
              Appendix 2).




                        7
RESULTS OF AUDIT
                 The Department of Labor had adequate controls over JTPA
OVERVIEW         contracts awarded to business entities that provided job
                 training and other services, but other controls needed
                 improvement. Specifically, we found that Labor (1) did not
                 maintain adequate financial accountability over JTPA grant
                 expenditures and drawdowns and (2) did not have effective
                 management control over JTPA grant and program
                 operations. The Code of Federal Regulations (20 CFR 627)
                 establishes uniform administrative requirements for programs
                 under the JTPA law. However Labor employees did not
                 always follow the administrative requirements, and Labor
                 management did not provide adequate oversight to ensure that
                 the administrative requirements were being met. As a result,
                 we were unable to verify the accuracy of financial status
                 reports submitted to the U.S. Department of Labor or of
                 drawdowns made against program funds. Therefore, we
                 classified expenditures of $1.91 million as unsupported costs.
                 Additionally, payroll costs of $152,840 were charged to the
                 wrong accounts and additional payroll costs of $16,400 could
                 not be verified. Further, there was no assurance that JTPA
                 program participants were eligible to participate or that they
                 received the type or level of services intended by the JTPA
                 legislation.


                 Labor did not maintain adequate financial accountability for
FINANCIAL        the JTPA grants because it did not (1) maintain adequate
ACCOUNTABILITY   documentation to support expenditures of $3.06 million that
                 were included in financial status reports, (2) prepare accurate
                 financial status reports, (3) maintain adequate documentation
                 to support drawdowns of $2.99 million received through
                 electronic funds transfers, (4) make drawdowns in accordance
                 with Federal requirements, and (5) timely submit payroll
                 withholding amounts to the appropriate agencies. In addition,
                 although we concluded that drawdowns were appropriately
                 deposited to the Government’s bank account, drawdowns
                 were not timely recorded and properly accounted for in the
                 Government’s financial management system.


Documentation    The Code of Federal Regulations (20 CFR
Requirements     627.425(2)(b)(2)(ii)) states that grantee accounting systems
                 should be able to provide fiscal control and accounting


                            8
                                          procedures to "permit the tracing of funds to a level of
                                          expenditure adequate to establish that funds have not been
                                          used in violation of the applicable restriction on the use of
                                          such funds." In addition, the Code (20 CFR 627.460(2)(d))
                                          states that "records shall be retained and stored in a manner
                                          which will preserve their integrity and admissibility as
                                          evidence in any audit or other proceeding. The burden of
                                          production and authentication of the records shall be on the
                                          custodian of the records." The Code (20 CFR 627.460(2))
                                          further requires that records for each program year be retained
                                          for 3 years after the grantee submits to the grantor agency its
                                          final expenditure report for that program year.


Adequate Documentation                    For program year 1998, Labor reported accrued expenditures
Not Maintained for                        of $1.7 million for programs under Titles II and III for the
Expenditures Totaling                     period of April 1, 19982 to December 31, 2000. For program
$3.06 Million                             year 1999, Labor reported accrued expenditures of
                                          $1.36 million for programs under Titles II and III for the
                                          period of April 1, 1999 to December 31, 2000. To test the
                                          validity of these expenditures, we requested the supporting
                                          documents for a sample of the quarterly financial status
                                          reports. However, Labor employees did not maintain an
                                          adequate records retention system, and they were unable to
                                          provide us with a list of the specific expenditures included in
                                          the financial status report or the associated supporting
                                          documents for any of the reports. Labor employees told us
                                          that it was difficult to compile the information because of
                                          staff shortages. As a result, we were unable to determine
                                          whether the expenditures of $3.06 million that were included
                                          in the financial status reports and submitted to the U.S.
                                          Department of Labor for program years 1998 and 1999 were
                                          reasonable, allowable, and allocable pursuant to the grant
                                          agreement provisions. In addition, we concluded that Labor
                                          was not in compliance with the Code of Federal Regulations
                                          with respect to the documentation requirements for grant
                                          programs.

                                          Because Labor employees were unable to provide us with
                                          adequate supporting documentation to verify amounts
                                          included in the financial status reports, we reviewed in-house
                                          spreadsheets prepared by Labor employees for the period

__________
2
 For program year 1998, Title II-B funds were awarded in February 1998, and expenditures totaling $54,097 were
included in the financial status report for the quarter ended June 30, 1998.




                                                      9
                           July 1, 1998 to December 31, 2000. Labor employees told us
                           that the spreadsheets were used to compile the financial status
                           reports. We compared the financial status reports with the
                           in-house spreadsheets and found that, for program year 1998,
                           the in-house spreadsheets listed expenditures totaling
                           $1,607,182 but the financial status reports included
                           expenditures totaling $1,697,314. Therefore, the financial
                           status reports included expenditures of $90,132 that were not
                           included on the in-house spreadsheets. For program year
                           1999, the in-house spreadsheets listed expenditures totaling
                           $1,404,133, but the financial status reports included
                           expenditures totaling $1,360,318.           Therefore, Labor’s
                           in-house spreadsheets included expenditures of $43,815 that
                           were not included in the financial status reports. Labor
                           employees were unable to explain why amounts included in
                           the financial status reports could not be reconciled to amounts
                           included on the in-house spreadsheets.

                           Finally, in an effort to validate expenditures included in the
                           Government’s financial management system for the JTPA
                           programs, we reviewed and confirmed the existence of
                           expenditures of $299,834 charged for Labor employees who
                           worked on JTPA matters, and we also reviewed and
                           confirmed the existence of expenditures of $850,834 paid to
                           business entities that provided job training and other services.
                           Although we believe that these amounts would be reasonable,
                           allowable, and allocable pursuant to grant agreement
                           provisions, we were unable to determine whether these
                           amounts were included in the financial status reports
                           submitted to the U.S. Department of Labor. For purposes of
                           our review, we accepted the expenditures of $1.15 million
                           (out of $3.06 million) for personal services costs and
                           contracts with business entities. However, we classified the
                           remaining expenditures of $1.91 million that we were not able
                           to confirm as unsupported costs.

                           In order to strengthen controls over the financial
                           accountability of the JTPA grants, Labor should maintain
                           adequate supporting documentation for each type of
                           expenditure included in the financial status reports and
                           develop a filing system so that these documents will be
                           readily available for review, as required by the Code of
                           Federal Regulations.


Financial Status Reports   We found that the JTPA quarterly financial status reports
Not Accurately Prepared    submitted to the U.S. Department of Labor were not

                                     10
                        accurately prepared. For example, for program year 1998, the
                        financial status report for the quarters ending December 31,
                        1998 through June 30, 2000 did not include the correct
                        expenditure amounts (on a cumulative basis) for Titles II-A,
                        II-B, and II-C. Accordingly, the total expenditures reported
                        on the financial status reports were also inaccurate. We found
                        similar inaccuracies in the quarterly status reports for program
                        year 1999.


Drawdowns of Almost     Drawdowns of Federal funds to pay for expenditures incurred
$2.99 Million Not       under the JTPA programs were received through electronic
Adequately Supported    funds transfers. As of December 18, 2000, Labor had
                        received 18 electronic funds transfers totaling $2.99 million
                        for program years 1998 and 1999. To verify the expenditures
                        claimed against each drawdown, we selected a sample of nine
                        drawdowns totaling $1.18 million for program years 1998 and
                        1999 and requested that Labor employees provide us with
                        documentation for the specific expenditures associated with
                        the drawdowns. However, the employees were not able to
                        provide this information. They also told us that records were
                        not maintained of the specific expenditures to support each
                        drawdown and that, because of staff shortages, they were
                        unable to compile this information for us during the audit.

                        Because Labor employees were unable to provide us with
                        specific lists of expenditures to support the drawdowns, we
                        compared the drawdowns with the accrued expenditures on
                        the financial status reports for program years 1998 and 1999.
                        For program year 1998, we determined that as of
                        December 31, 2000, Labor received drawdowns of
                        $1,662,546 and reported accrued expenditures of $1,697,314.
                        Therefore, drawdowns were $34,768 less than the
                        expenditures reported in the financial status reports. For
                        program year 1999, we determined that as of December 31,
                        2000, Labor received drawdowns of $1,335,499 and reported
                        accrued expenditures of $1,360,318. Therefore, drawdowns
                        were $24,819 less than the expenditures reported in the
                        financial status reports.


Drawdowns Not Made in   We also determined that Labor did not make drawdowns in
Accordance With         accordance with the Cash Management Improvement Act of
Requirements            1990 (31 CFR 205.7(b)), which require that grantees
                        "minimize the time elapsing between the transfer of funds
                        from the United States Treasury and the payout of funds for
                        program purposes by a State, whether the transfer occurs

                                  11
before or after the payout." To arrive at this conclusion, we
compared the frequency and timing of expenditures and
drawdowns. We found that drawdowns were not made on a
biweekly basis to cover the biweekly payroll costs for Labor
employees who were paid with JTPA funds. Instead,
drawdowns were generally made at the end of a quarter rather
than at the time that the expenditures were incurred. Our
analysis was corroborated by Labor employees, who told us
that drawdowns were not made until checks were cut by the
Department of Finance to pay for JTPA program expenditures
and that, in general, Labor employees waited until a series of
checks were cut before requesting drawdowns.

In our opinion, Labor employees should have made the
drawdowns and then informed the Department of Finance that
funds were available to pay for accrued expenditures.
Because drawdowns were not made to cover biweekly payroll
costs and other program costs but instead were made after
checks were cut by the Department of Finance, we concluded
that the Department of Finance either used funds from its
Special and Other Funds bank account to pay for JTPA
expenditures until the drawdowns were made to reimburse the
bank account or held checks until the drawdowns were made.
For example, we found that:

       - During program years 1998 and 1999 (a total of
52 pay periods), Labor charged payroll costs of $299,834 for
about eight employees who worked on JTPA programs.
Therefore, about $5,766 was charged to the JTPA programs
on a biweekly basis to pay for the employees’ salaries.
Because these employees were paid on a biweekly rather than
a quarterly basis, Labor should have made drawdowns on a
biweekly basis to ensure that funds were available to cover
these payroll costs.

         - For the quarter ending September 30, 1998, the
financial status report listed expenditures totaling $448,302 as
follows: $51,154 for Title II-A, $319,753 for Title II-B,
$7,673 for Title II-C, and $69,722 for Title III. However, no
drawdowns were made by Labor during the quarter (July 1,
1998 to September 30, 1998). On October 1, 1998, a
drawdown for $326,476 was received for Title II-B only,
leaving an unreimbursed balance of $121,826 for the
Title II-A, II-C, and III programs.

        - For the quarter ending December 31, 1999, the
financial status report listed expenditures totaling $152,044 as

          12
                          follows: $60,803 for Title II-A, $11,441 for Title II-B,
                          $11,379 for Title II-C, and $68,421 for Title III. We found
                          that Labor made drawdowns on December 3, 1999 and
                          January 5, 2000, totaling $327,514, or $175,470 more that
                          reported on the financial status report for the period ending
                          December 31, 1999. The additional $175,470 may have been
                          used as reimbursement for expenditures incurred in prior
                          quarters.

                          In order to improve internal controls in this area, Labor
                          employees should monitor the costs incurred against the
                          JTPA programs, timely request drawdowns to pay for these
                          costs, and inform the Department of Finance when
                          drawdowns have been received to pay for incurred costs. We
                          believe that the current method of waiting until the
                          Department of Finance cuts a check negatively impacted the
                          JTPA programs because contractors who provide job training
                          and other services were not always being paid on a timely
                          basis.


Drawdowns Not             We tried to trace the recording of the 18 drawdowns totaling
Timely Recorded in        $2.99 million that were made by Labor during the period of
Government Financial      July 14, 1998 to December 18, 2000. Although all
Management System         18 drawdowns were properly deposited into the
                          Government’s Special and Other Funds bank account, we
                          found that 12 of the drawdowns, totaling about $1.7 million,
                          had not been recorded in the Government’s financial
                          management system or credited to the appropriate JTPA
                          accounts. This occurred because the Department of Finance
                          had not prepared and processed the necessary Statements of
                          Remittance to record the drawdowns in the financial
                          management system. For the remaining six drawdowns
                          totaling about $1.3 million, we determined that it took
                          between 4 months and 1 year to record the drawdowns in the
                          financial management system.


Amounts Withheld From     We reviewed the payments made by the Department of
Employee Paychecks        Finance for income taxes, social security taxes, and retirement
Not Timely Forwarded      system contributions from amounts withheld from JTPA
to Appropriate Agencies   employee paychecks. With regard to income taxes and social
                          security taxes, Federal law requires that payments be remitted
                          to the appropriate agencies within 3 days after the end of each
                          pay period. With regard to retirement system contributions,
                          the Government Employees’ Retirement System requires that
                          payments be remitted within 21 days after the end of each pay

                                    13
                                              period. However, we found that income tax payments were
                                              submitted up to 234 days late, social security tax payments
                                              were submitted up to 11 days late, and retirement system
                                              contribution payments were submitted up to 22 days late.

                                              Labor did not effectively manage the JTPA grants and
GRANT AND                                     programs. Specifically, (1) payroll costs were not reconciled
PROGRAM                                       and were routinely charged to the wrong grant year, (2)
ADMINISTRATION                                property records were not updated and physical inventories
                                              were not conducted, (3) participant files did not always
                                              contain all required documents, (4) participants did not
                                              always meet eligibility requirements for program
                                              participation, (5) follow-up action to determine the
                                              employment status of program participants was not conducted
                                              within the established time frame, and (6) the contractor
                                              monitoring position of Evaluation and Assessment Officer
                                              was not filled when it became vacant. As a result, there was
                                              no assurance that JTPA program participants were eligible to
                                              participate or that they were receiving the type or level of
                                              services intended by the JTPA legislation.

Payroll Costs of $152,840                     We reviewed payroll information recorded in the
Charged to Wrong                              Government’s financial management system for the period of
Accounts and Payroll                          July 1998 through June 2000 for Labor employees who were
Costs of $16,400                              paid with JTPA funds. We found that payroll costs totaling
Not Able to Be Verified                       $152,200 and covering 31 pay periods were charged to the
                                              wrong program year and additional payroll costs of $640 were
                                              charged to the wrong account code. In addition, payroll costs
                                              totaling $16,400 and covering three pay periods could not be
                                              verified because Labor employees did not provide us with the
                                              payroll distribution records. These conditions occurred
                                              because Labor employees did not reconcile the information
                                              recorded in the Government’s financial management system
                                              with Labor’s internal records to determine whether the
                                              amounts were recorded to the correct accounts.

Property Records                              Labor did not have detailed property records and did not
Not Adequate and                              perform physical inventories at least once every 2 years, as
Physical Inventories                          required by Section 32(d) of the Common Rules for the
Not Performed                                 administration of grant programs.3 Labor purchased one piece
__________
3
 Section 32(d)(1) of the Uniform Administrative Requirements for Grant and Cooperative Agreements to State and Local
Governments (generally referred to as the Common Rules) states, "Property records must be maintained that include a
description of the property, a serial number or other identification number, the source of property, who holds title, the
acquisition date, and cost of the property, percentage of Federal participation in the cost of the property, the location,
use and condition of the property, and any ultimate disposition data including the date of disposal and sale price of the
property." Section 32(d)(2) states, "A physical inventory of the property must be taken and the results reconciled with
the property records at least once every two years."


                                                           14
                           of nonexpendable equipment (a photocopy machine) with
                           JTPA funds for program year 1999. Although we were able
                           to physically locate the photocopy machine, we found that it
                           was not recorded on a property list maintained by Labor’s
                           Property and Procurement Clerk but was simply added to a
                           property list originally prepared in July 1995. The Property
                           and Procurement Clerk told us that she was not always
                           informed when equipment items were purchased. As a result,
                           she was unable to update the property list. In addition to
                           being incomplete, the property list did not include the detailed
                           information required by the Common Rules. Further, the
                           Property and Procurement Clerk told us that a physical
                           inventory had not been performed in at least 3 years.


86 Participant Files Did   According to JTPA requirements, each participant file should
Not Contain All Required   contain an application, a Test of Basic Education (with the
Documents                  exception of disabled or illiterate individuals), an
                           Employment Development Plan, a Competency Test for youth
                           between the ages of 15 and 21 (with the exception of disabled
                           or illiterate youth), an update of the application if the
                           participant was not placed into a program within 45 days of
                           the initial application date, a referral letter, a Notice of
                           Participation, a Status Change Form, and a Termination Form.
                           For program years 1998 and 1999, we reviewed a sample of
                           259 participant files and found that participant files were not
                           adequately maintained. Specifically, we noted that 1 file did
                           not have an updated application for a participant who was not
                           placed into a program within 45 days of the initial application
                           date, 35 files did not have a Test of Basic Education, 6 files
                           did not have an Employment Development Plan, and 44 files
                           did not have a Notice of Participation.


13 Participants Did Not    A Labor official told us that applicants cannot be placed into
Meet Enrollment            JTPA programs without first completing an application form.
Requirements               However, we found two instances where the applicants were
                           placed into JTPA programs without first completing the
                           required application forms. In one instance, a Title II-C
                           participant was enrolled on August 24, 1998 but did not
                           complete the application until August 26, 1998. In the second
                           instance, a Title III participant was enrolled on January 13,
                           2000 but did not complete the application until January 24,
                           2000.

                           A Labor official also told us that applicants who are
                           unemployed for a period of at least 15 weeks are eligible to

                                     15
                        participate in the Title III program based on long-term
                        unemployment. We found one instance where a Title III
                        participant was classified as unemployed in December 1999,
                        applied for eligibility in February 2000, and was placed in the
                        Title III program in March 2000. We concluded that because
                        the applicant applied for eligibility in February 2000, the
                        minimum 15 weeks of unemployment was not met.

                        Male participants in the Title II programs are required to
                        comply with Section 3 of the Military Selective Service Act,
                        which requires male citizens and residents of the United
                        States between the ages of 18 and 26 to register with the
                        Selective Service. However, we found 10 instances in which
                        male participants did not have evidence of Selective Service
                        registration on file at the JTPA office. According to Labor
                        officials, a Selective Service registration form should be in
                        the files or the registration number should be written on the
                        JTPA application form.


Required Follow-Up      The Training Unit is required to follow up with Title II-A,
With Participants Not   Title II-C, and Title III program participants within 90 days
Conducted or            after program completion to determine the participants’
Not Timely              employment status. We reviewed 259 participant files and
                        found that the required follow-up was not documented for
                        24 participants, was incomplete for 2 participants, and was
                        not conducted within the 90-day deadline for 109 participants.
                        Regarding these109 participants, we found that follow-up
                        reviews were not conducted until 120 to 330 days after the
                        participants had completed the training program. Labor
                        official told us that the required follow-up reviews either were
                        not conducted or were delayed because of difficulties in
                        contacting participants after program completion.


Evaluation and          In accordance with the Code of Federal Regulations (20 CFR
Assessment Officer      627.240(g)(1)), Labor is required to monitor contractors who
Position Not Filled     provide job services and other training initiatives to ensure
                        that contractor claims for reimbursement can be substantiated
                        and to ensure that program participants receive the agreed-
                        upon training. To comply with the Code, Labor had an
                        Evaluation and Assessment Officer on staff to perform the
                        monitoring function. However, the employee retired in
                        December 2000, and as of April 30, 2001, Labor had not
                        filled the vacant position of Evaluation and Assessment




                                  16
Officer. Therefore, Labor was not able to conduct the
monitoring function in accordance with the Code of Federal
Regulations.




         17
RECOMMENDATIONS
                  We recommend that the Governor of the Virgin Islands direct
TO THE GOVERNOR   the Commissioner of Labor to:
OF THE VIRGIN
ISLANDS               1. Require that supporting documentation for financial
                  status reports and drawdowns be retained and filed in a
                  manner that complies with the requirements of the Code of
                  Federal Regulations. Specifically, for each financial status
                  report and for each request for drawdown, a summary of
                  expenditures by cost classification or other identifying
                  documents should be attached to and filed with the status
                  report and request for drawdown so that source documents for
                  each individual expenditure can be retrieved in a timely
                  manner.

                      2. Require that Labor employees monitor costs incurred
                  against the JTPA program, request drawdowns at the time that
                  the expenditure transactions are processed, and inform the
                  Department of Finance of the specific expenditures for
                  drawdowns approved by the grantor agency.

                      3. Require that Labor employees resubmit corrected
                  financial status reports for program years 1998 and 1999 that
                  include expenditures on a cumulative basis, along with
                  correctly recorded expenditure totals.

                      4. Require that Labor employees reconcile (on an annual
                  basis) personal services costs to ensure that these costs have
                  been recorded to the appropriate program accounts and
                  obtain the supporting payroll distribution records for the pay
                  periods ending August 15, 1998; February 12, 2000; and
                  May 20, 2000.

                      5. Ensure that the Property and Procurement Clerk is
                  promptly informed of all JTPA equipment purchases and is
                  required to maintain complete property records and perform
                  a physical inventory of JTPA equipment at least once every 2
                  years, as required by the Common Rules.

                     6. Require that Labor employees maintain all documents
                  required to be in program participant files.




                            18
                         7. Require that Labor employees ensure that applicants
                     meet all eligibility requirements prior to program
                     participation.

                         8. Require that the Training Unit follow up with program
                     participants within 90 days after program completion to
                     determine the participants’ employment status.

                        9. Take necessary action to fill the position of Evaluation
                     and Assessment Officer.

                     We recommend that the Governor of the Virgin Islands direct
                     the Commissioner of Finance to:

                           10. Take action to ensure that electronic transfers of
                     Federal funds are recorded in the Government’s financial
                     management system in a timely manner.

                           11. Process checks to pay for expenditures incurred
                     against Federal grants within 3 days of the receipt of the
                     drawdown in accordance with the Cash Management
                     Improvement Act of 1990.

                            12. Transmit amounts withheld from employee
                     paychecks for income taxes, social security taxes, and
                     retirement system contributions to the appropriate agencies in
                     accordance with established time frames.


                     The September 27, 2001 response (Appendix 3) to the draft
GOVERNOR OF THE      report from the Governor of the Virgin Islands, which
VIRGIN ISLANDS AND   transmitted a response from the Department of Labor,
DEPARTMENT OF        expressed concurrence with the 12 recommendations.
LABOR                However, the response did not provide sufficient information
                     regarding proposed corrective actions on some of the
                     recommendations addressed to the Department of Labor.
                     Additionally, corrective actions were not discussed for
                     Recommendations 10, 11, and 11, which were addressed to
                     the Department of Finance.


                     Based on the response, we consider Recommendations 1, 2,
OFFICE OF            and 3 resolved and implemented; Recommendation 4
INSPECTOR            resolved but not implemented; and requested additional
GENERAL REPLY        information for Recommendations 5, 6, 7, 8, 9, 10, 11, and 12
                     (see Appendix 4). Regarding Recommendations 7 and 8, the
                     Department of Labor stated that additional information was

                               19
needed on the specific cases cited in the audit report in order
for the Department to respond more fully. We provided the
requested information on October 12, 2001.




          20
APPENDIX 1 - MONETARY IMPACT
                                              Questioned Costs*
FINDING AREAS                           Unsupported           Cost
                                           Costs           Exceptions

Financial Accountability
   Unsupported Expenditures             $1,906,964

Grant and Program
Administration
  Incorrect Payroll Charges                 16,400
  Unsupported Payroll Costs             _________           $152,840

       Totals                           $1,923,364          $152,840




__________
* Amounts represent local funds.




                                   21
APPENDIX 2 - PRIOR AUDIT REPORT
                  The December 1996 report "Audit of Service Contracts
VIRGIN ISLAND     Awarded Under the Jobs Training Partnership Act (JTPA)"
BUREAU OF AUDIT   (No. AC-01-81-97) stated that (1) a contract for $386,000 was
AND CONTROL       awarded contrary to established procedures; (2) another
REPORTS           contract, although awarded through the competitive proposal
                  process, included circumstances which might suggest a
                  potential conflict of interest; (3) some payment requests from
                  contractors were being processed before the JTPA Division
                  could verify compliance with the contract terms; (4)
                  sometimes there were considerable delays between the time
                  that payments were requested and the payments were actually
                  made; and (5) a contractor received a payment of $50,000
                  without providing the agreed-to training and without
                  submitting supporting documentation.

                  Based on our review, we concluded that internal control
                  weaknesses still existed with regard to the processing of
                  payment requests and the timeliness of payments to
                  contractors.




                            22
APPENDIX 3 - RESPONSES TO DRAFT REPORT




                   23
APPENDIX 4 - STATUS OF RECOMMENDATIONS

Finding/Recommendation
       Reference            Status                        Action Required

      1, 2, and 3        Implemented.    No further action is required.

          4              Resolved; not   Provide this office with supporting
                         implemented.    documentation upon completion of corrective
                                         actions.

          5              Management      Provide a plan of action, including the target
                         concurs;        date and title of the responsible official, for
                         additional      implementing the part of the recommendation
                         information     requiring the maintenance of detailed property
                         requested.      control records and the conduct of physical
                                         inventories of equipment at least every 2 years.

       6 and 9           Management      Provide the target dates for completing
                         concurs;        corrective actions on the recommendations.
                         additional
                         information
                         requested.

       7 and 8           Management      Provide a plan of action, including the target
                         concurs;        dates and titles of the responsible officials, for
                         additional      implementing the recommendations.
                         information
                         requested.

    10, 11, and 12       Management      Provide a response from the Department of
                         concurs;        Finance that includes a plan of action, including
                         additional      the target dates and titles of the responsible
                         information     officials, for implementing the
                         requested.      recommendations.




                                         27
 Mission Statement
 The Office of Inspector General conducts and supervises
 audits and investigations of Department of the Interior and
 insular area government programs and operations to:

 ! Promote the economy, efficiency, and effectiveness of
   programs and operations and

 ! Prevent and detect fraud, waste, and abuse in programs and
   operations.




How to Report Fraud, Waste, and Abuse
 Fraud, waste, and abuse in Government are the concern of
 everyone – Office of Inspector General staff, Departmental
 employees, and the general public. We actively solicit
 allegations of any inefficient and wasteful practices, fraud, and
 abuse related to Departmental or insular area programs and
 operations. You can report allegations to us by:

 Mail:         U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 5341-MIB
               1849 C Street, NW
               Washington, DC 20240

 Phone:        24-Hour Toll Free                    800-424-5081

               Washington Metro Area                202-208-5300
               Hearing Impaired                     202-208-2420
               Fax                                  202-208-6023

               Caribbean Regional Office            340-774-8300
               Pacific Field Office                 671-647-6060

 Internet:     www.oig.doi.gov/hotline_form.html
